IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019

THE STATE OF OKLAHOMA,
Petitioner,
JESSE ALLEN JOHNSON,

Respondent.

AFFIDAVIT OF MAILING
COUNTY OF OKLAHOMA, STATE OF OKLAHOMA ) SS.

I, Andrea Digilio Miller, being first duly sworn, depose and say that lama
member of the bar of this Court, that I am the attorney for Respondent Jesse
Allen Johnson, and that I caused to be mailed an original and eleven (11) true
and correct copies of the Brief in Opposition to Petition For Writ Of Certiorari to
the Office of the Clerk, Supreme Court of the United States, on the 18 day of

a fe
November 2019, by depositing same in the United States Mails, postage prepaid.

I further depose and say that I caused to be mailed a true ‘and correct copy

of the foregoing Brief in Opposition to Petition For Writ Of Certiorari to Jennifer

Hinsperger, Assistant District Attorney, Office of the Oklahoma County District

Attorney, 320 Robert S. Kerr Avenue, Suite 505, Oklahoma City, Oklahoma on

Ln, (3) ve

ANDREA DIGILIO MILLER ~

the 18 day of November, 2019.

Further Affiant sayeth not.
SUBSCRIBED AND SWORN TO before me this 18% day of November, 2019.

den (Orn

NOTARY PUBLIC

MY COMMISSION EXPIRES:

 
